                           WHITE PAPER


Like, Share, Tweet: Social
Media and the Postal Service
April 21, 2014




                     Report Number: RARC-WP-14-010
                                                                EXECUTIVE SUMMARY

     Like, Share, Tweet: Social Media and the
                  Postal Service
Social media has revolutionized the world
of communication and commerce, radically                              Highlights
changing the way people make purchase                 Social media is now an important
decisions. It is increasingly used by                 channel of business communication:
millions of people around the world to                70 percent of businesses and
interact with each other, access                      organizations worldwide have a social
information, and recommend products and               media presence.
services.
                                                      Social media represents as much as
Most businesses and organizations now                 $1.3 trillion in annual economic value.
view social media as an opportunity to
reach and engage with large customer                  A strong social media strategy could
                                                      help the Postal Service remain
audiences in ways impossible before:
                                                      competitive in the digital age by better
directly, in-real time, and at a lower cost.          responding to changing communication
Likewise, the U.S. Postal Service (Postal             needs, improving the customer
Service) could better use social media to             experience, creating value through
obtain these benefits. Effectively                    social commerce, and cutting costs.
integrating social media into an
omnichannel marketing and                             The Postal Service can enhance its
communication strategy can offer                      currently limited social media strategy
businesses numerous benefits.                         by undertaking actions that would:

First, a fully developed social media                    ensure a strong foundation by
strategy can help companies respond                       allocating necessary resources,
more effectively to the changing                         expand its social media reach,
communication needs of their customers.                   visibility, and level of engagement,
As users, especially younger generations,                leverage the network to improve
increasingly rely on online and social                    brand image, build new products,
channels to shop, access information, and                 and create new marketing and sales
seek entertainment, businesses will have                  opportunities, and
to increase their efforts to reach them on               turn social media into a valuable
the channel they prefer. Second, social                   data source.
media allows businesses to take


U.S. Postal Service Office of Inspector General                                          April 21, 2014
                                                  i
RARC-WP-14-010                                                    Like, Share, Tweet: Social Media and the Postal Service



advantage of network effects — reaching an exponentially growing audience that is also
a valuable source of customer information.

For many businesses, social media has provided new ways to generate revenue. Social
sites can be effective at driving customers to companies’ websites, promoting positive
word-of-mouth about products and services, enhancing the corporate brand, and
increasing customer loyalty. These activities translate into increased revenue. Finally,
because social media is a less expensive tool to manage internal and external
corporate marketing and communication activities, it also cuts costs.

Although the direct return on investment of social media is difficult to measure, the
benefits are likely to be substantial. Researchers at McKinsey estimate that there is
somewhere between $900 billion and $1.3 trillion in annual value to the economy that
could be unlocked by social technologies. 1

The Postal Service has already begun to build a social media strategy and has
established a presence on some of the major social media sites. A small team manages
the Postal Service’s presence and also uses some helpful analytics tools. Nevertheless,
to fully harness the power of social media and reap the potential benefits, the Postal
Service could consider undertaking some additional actions:

          Allocating additional resources. The resources the Postal Service currently
           allocates to social media do not seem to be sufficient to ensure an engaging
           online presence with appropriate cross-company coordination.

          Increasing social media visibility. To increase its number of followers and
           therefore maximize potential benefits, the Postal Service could market its social
           presence more actively by, for example, making social media site logos more
           visible on USPS.com, in TV commercials, on its vehicles, and in post office
           lobbies.

          Improving customer care. Solving more customer complaints over social media
           can help the Postal Service project a better public image, reduce complaints by
           sharing solutions with all customers, and reduce customer care costs.

          Delivering more customer-centric content. For an organization with such a broad
           and diverse customer base like the Postal Service, creating more regional, local,
           or interest-based user communities could attract followers by providing them with
           content more pertinent to their needs and interests.

          Marketing current products and services. The Postal Service could use social
           media to advertise its current offerings, sell selected products and services, and
           conduct crowdsourced market research.


1
 McKinsey & Company, The Social Economy: Unlocking Value and Productivity through Social Technologies, July
2012, http://www.mckinsey.com/insights/high_tech_telecoms_internet/the_social_economy, p. 3.


U.S. Postal Service Office of Inspector General                                                            April 21, 2014
                                                      ii
RARC-WP-14-010                                            Like, Share, Tweet: Social Media and the Postal Service



          Creating new products. Social media creates an opportunity for the Postal
           Service to offer crowdshipping services, social e-commerce services,
           identification services, and products that help bridge the physical and digital
           communication worlds. Social e-commerce services, for example, could facilitate
           the use of social platforms as storefronts, similar to online shops on Etsy or
           Amazon. The Postal Service could manage necessary back-end services such
           as microwarehousing, fulfillment, and delivery.

          Turning social media into a valuable data source. A greater investment in
           advanced social media analytics tools could help the Postal Service gain a better
           understanding of what resonates with users and what factors are likely to lead to
           a more positive view of the brand or even drive sales.

          Continually evaluating new platforms. The social media landscape is constantly
           evolving. New tools and capabilities might be appropriate to help the Postal
           Service meet its goals. For example, Pinterest is quickly becoming a popular
           platform and has recently demonstrated an ability to drive sales. The Postal
           Service should frequently scan for new platforms, such as Pinterest, that might fit
           its strategy.

Although not a “cure all,” social media offers significant benefits, and many opportunities
exist for the Postal Service to expand in this area. To do so will require a more solid
foundation of resources and a distinct, agency-wide commitment. A solid and
comprehensive social media strategy built on such a foundation could help the Postal
Service extend its reach, cut costs, create value, and remain current as society
changes.




U.S. Postal Service Office of Inspector General                                                    April 21, 2014
                                                  iii
     RARC-WP-14-010                                                                  Like, Share, Tweet: Social Media and the Postal Service



                                                       Table of Contents
Introduction ............................................................................................................................... 1

Social Media: Definition and Characteristics............................................................................. 2

Benefits of Social Media for Businesses ................................................................................... 3

Expanding the Postal Service’s Use of Social Media: A Possible Step-by-
Step Implementation Strategy .................................................................................................. 4
Step 1: Commit to Social Media ............................................................................................... 5
Step 2: Build a Broad User Network ......................................................................................... 8
Step 3: Leverage the Network ................................................................................................ 15
Step 4: Measure the Network’s Success ................................................................................ 22

Conclusion .............................................................................................................................. 24

                                                         Appendices
Appendix A                     Common Social Media Platforms............................................................. 25

Appendix B                     Detailed Explanation of the Benefits of Social Media............................... 26


                                                          Snapshots
Snapshot 1                     UPS — Building a Dedicated Core Social Media Staff ..............................7

Snapshot 2                     Popular Recent Postal Service Post on Facebook ....................................9

Snapshot 3                     Nilla Wafers — Investing Entire Advertising Budget in
                               Social Media ............................................................................................ 10

Snapshot 4                     USPS and Customer Service on Social Media ........................................ 11

Snapshot 5                     National Geographic — Creating Local Networks through
                               Local Content........................................................................................... 13

Snapshot 6                     Mock-Up of a Possible Carrier Twitter Page ............................................ 14

Snapshot 7                     Canada Post — Market and Sell through Social Media ........................... 18

Snapshot 8                     Nike — Creating Social Products............................................................. 22

Snapshot 9                     Customer Sentiment Analysis .................................................................. 24


     U.S. Postal Service Office of Inspector General                                                                          April 21, 2014
                                                                      iv
   RARC-WP-14-010                                                                 Like, Share, Tweet: Social Media and the Postal Service



                                                              Table
Table 1                      Social Media Platforms ............................................................................ 25


                                                            Figures
Figure 1                     Opportunities for the Postal Service at Each Step of
                             Implementation ..........................................................................................5

Figure 2                     Potential Social Postal Products and Services ........................................ 19

Figure 3                     Top Ten Users of @USPS and #USPS (during one week
                             in late July 2013)...................................................................................... 23


                                                             Videos
Video 1                      Blippar Product for the U.S. Postal Service ............................................. 16

Video 2                      U.S. Postal Service Virtual Box Simulator ............................................... 17

Video 3                      Friendshippr, a Crowdshipping Startup .................................................... 20




   U.S. Postal Service Office of Inspector General                                                                         April 21, 2014
                                                                    v
RARC-WP-14-010                                                       Like, Share, Tweet: Social Media and the Postal Service




     Like, Share, Tweet: Social Media and the
                  Postal Service

Introduction
Social media is the latest revolution in the world of communication, having radically
changed the way people communicate and interact as well as how they access and
share information. Thanks to its immediacy, broad reach, and openness, millions of
users around the world have adopted social media as an important channel to talk to
each other, share personal content, and — most importantly for businesses —
recommend products and services.

The proliferation of social media platforms and users
has provided businesses the unprecedented                  Many customers prefer
opportunity to reach and engage with large customer        engaging with businesses
audiences in ways impossible before: directly, in real     through social media and
                                                           have come to expect it.
time, and at a lower cost. To harness the potential
power of the new social channels, businesses and
organizations are rethinking their marketing, communication, and commercial strategies.
It is now common to establish a social media presence and use it to promote brand
awareness, build trust and relationships with customers, obtain customer feedback, and
market products and services.

Given all the buzz around social media, it can be difficult to separate hype from reality
and determine its actual value for business. Social media cannot do everything, but it
                                       does have unique features and capabilities that
 Social media offers the Postal        are beneficial and can be very important to a
 Service a new way to connect          business’s overall communication strategy. Many
 with customers, build new             customers do not just prefer engaging with
 products, and demonstrate that        businesses through social media; they have
 it can be vital in this new           come to expect it. Any business failing to
 communication environment.            understand these new customer expectations will
                                       likely be left behind.

The U.S. Postal Service (Postal Service) has already begun to develop and utilize social
media, as detailed in the U.S Postal Service’s Office of Inspector General’s (OIG)
previous report, The Postal Service’s Use of Social Media. 1 This paper will expand the
analysis of the social media environment in which the Postal Service operates and
provide additional suggestions on how it could increase the effectiveness of its social
media strategy.
1
   U.S. Postal Service Office of Inspector General (OIG), The Postal Service’s Use of Social Media: Management
Advisory, Report No. MS-MA-13-003, August 1, 2013, http://www.uspsoig.gov/sites/default/files/document-library-
files/2013/ms-ma-13-003.pdf.


U.S. Postal Service Office of Inspector General                                                               April 21, 2014
                                                        1
RARC-WP-14-010                                                     Like, Share, Tweet: Social Media and the Postal Service



Now is an opportune time for the Postal Service to be proactive in engaging more fully
with social media. The Postal Service has the benefit of learning from the failures and
successes of early social media adopters, and using those lessons to craft a more
effective strategy. In a time when the traditional role of the Postal Service is shrinking
due to digital alternatives, social media offers the Postal Service a new way to connect
with customers, build new products that link the physical and digital worlds, and
demonstrate that the Postal Service can be not only relevant but vital in this new
communication environment.

Social Media: Definition and Characteristics
Because it can mean different things to different people and the landscape is constantly
changing, there is not one single recognized definition of social media. 2 Nevertheless,
looking at its most common features and uses, social media can be described by how it
differs from other forms of media. In particular, social media

          Provides a channel to openly communicate and share information with multiple
           people at the same time;

          Allows users to generate authentic content, share it in real time, and stimulate
           active engagement through comments and discussions;

          Ensures a high level of personalization — each user is the center of his or her
           own network, and users’ wants, needs, and interests are main topics of
           discussion; 3 and

          Facilitates the building of social networks and relationships among people who,
           for example, share interests, activities, backgrounds, or real-life connections. 4

From its genesis, the main purpose of social media
has been to create interconnected networks of            Social media will continue to
people, but the evolution of platform technologies       evolve, and it will be
has allowed social media providers to consistently       important for businesses to
                                                         embrace and adapt to future
add new features and capabilities as well as tailor
                                                         changes.
social platforms to the needs of different customer
segments. People, businesses, and organizations
now have the option to choose among different types of social platforms, each of them
enabling different uses and activities. For example, sites such as Facebook allow users
to share thoughts, pictures, and videos with friends and connections. Microblogs such
as Twitter allow for rapid communication of news, commentary and complaints; blogs


2
  Social Media and Its Origins, http://www.defence.gov.au/pathwaytochange/docs/socialmedia/1.%20Social%20medi
a%20and%20its%20origins%20SM.pdf, p. 5.
3
  Angela Hausman, “16 Differences Between Social Media and Traditional Media,” Business 2 Community, July 5,
2012, http://www.business2community.com/social-media/16-differences-between-social-media-and-traditional-media-
0211995#!w3w8A.
4
  “Social Networking,” Mashable, http://mashable.com/category/social-networking/.


U.S. Postal Service Office of Inspector General                                                             April 21, 2014
                                                      2
RARC-WP-14-010                                                     Like, Share, Tweet: Social Media and the Postal Service



such as Wordpress allow almost anyone to become a publisher; and review sites such
as Yelp put an abundance of information at consumers’ fingertips. 5

Currently, the most effective and useful applications of social media remain rooted in
the original purpose of creating new ways to keep in touch and foster a new kind of
engagement and communication. However, social media and its applications will
continue to evolve, and it will be important for businesses to embrace and adapt to
future changes in order to realize the benefits.

Benefits of Social Media for Businesses
Although social media started out as a social phenomenon, businesses soon realized
that it had commercial potential. 6 At a basic level, social media helps businesses

          Respond to changing customer communication needs. The Internet has changed
           the way people communicate. More and more people, particularly Millennials,
           rely on social media channels for shopping, information, and entertainment.
           Communicating via social media will be essential to cater to the evolving needs
           and preferences of increasingly digital customers.

          Leverage the “network effect.” Because so many people use social media, it
           allows businesses to reach a wide audience that expands exponentially — direct
           connections share information with their connections, who then share it with their
           connections, and so on. All this information sharing on social media is also an
           important source of big data — “unstructured” information about what people say,
           do, and prefer. The ability to obtain, manage, analyze, and use this data can
           provide excellent returns.

          Create value through social commerce. Businesses can directly sell products on
           social sites, although so far only in a limited capacity. More important is the
           reputation capital that comes from strong word-of-mouth advertising through
           social media, and the ability to promote a positive brand image.

          Cut costs and increase efficiency. Social media helps increase efficiency, for
           example, by reducing time spent searching for company information. Social
           media also allows businesses to carry out important activities, such as customer
           service and marketing, at a lower cost. For example, handling a customer call
           typically costs more than $6 whereas an interaction using social media costs less
           than $1. 7




5
  For more information on the types of social media sites available, please refer to Appendix A.
6
  See Appendix B for a detailed discussion.
7
  McKinsey, Why the COO should lead social-media customer service, January 2014, http://www.mckinsey.com/insig
hts/marketing_sales/why_the_coo_should_lead_social_media_customer_service, p. 2.


U.S. Postal Service Office of Inspector General                                                             April 21, 2014
                                                      3
RARC-WP-14-010                                                        Like, Share, Tweet: Social Media and the Postal Service



Even though social media is not a fix-it-all solution, these benefits have led 70 percent
of businesses and organizations worldwide to establish a social media presence. 8 Even
government agencies are getting involved — almost all of the agencies the U.S.
Government Accountability Office (GAO) examined in 2011 participated on social
media. 9 The Postal Service could also benefit if it more effectively combined
conventional marketing and communication tools with social media to create a
successful omnichannel communication strategy.

Expanding the Postal Service’s Use of Social Media: A
Possible Step-by-Step Implementation Strategy
To get the most out of social media, businesses must develop and hone an effective
social media strategy. Various successful strategies and campaigns are possible, but
they generally tend to result from the following step-by-step approach:

     1. Commit to social media;

     2. Build a network of followers;

     3. Leverage the network; and

     4. Measure the network’s success. 10

It is important to note that, while the steps should be taken in order, each step is
continuous. For example, the building phase is never complete — businesses must
always try to reach more people and create new content that keeps people engaged.

The first step is committing to social media, across all levels of the business, to ensure
a strong foundation for a successful social media strategy. Committing to social media
requires more than just establishing a social media presence. It includes defining the
goals for using social media, creating a comprehensive strategy to meet those goals,
clarifying which department(s) handles each aspect of social media communication, and
providing the resources necessary to ensure the strategy’s success.

The second step is to develop a network of loyal followers who are interested in
engaging with the business. Businesses must give their customers reasons to become
a part of their network, sparking conversations by creating interesting content, and
participating in resulting conversations in a genuine, transparent, and informal way.


8
  Of the 70 percent that were using social technology, 90 percent saw “some degree of business benefits.” See:
McKinsey & Company, The Social Economy, pp. 5-6.
9
  U.S. Government Accountability Office, Social Media: Federal Agencies Need Policies and Procedures for
Managing and Protecting Information They Access and Disseminate, Report No. GAO-11-605, June 2011,
http://www.gao.gov/products/GAO-11-605.
10
   For a more direct discussion of best practices, see: Andreas Kaplan and Michael Haenlein, “Users of the World
Unite!: The Challenges and Opportunities of Social Media,” 53, No. 1 (2010), http://www.sciencedirect.com/science/ar
ticle/pii/S0007681309001232.


U.S. Postal Service Office of Inspector General                                                                April 21, 2014
                                                         4
RARC-WP-14-010                                                 Like, Share, Tweet: Social Media and the Postal Service



Once a network is in place, a business can start thinking about how to leverage it.
Through engaging with customers, businesses can (1) promote the brand, (2) find out
directly from customers what they need and want through a new form of market
research, and (3) market and sell to customers directly.

Finally, the business must collect, analyze, and utilize the abundance of information
available from these networks not only to glean valuable information about customer
preferences and reactions, but also to measure the success of its strategy.

This section will discuss how far the Postal Service has advanced in implementing each
step, identify new opportunities, and provide some ideas of what actions the Postal
Service could take to maximize the benefits offered by social media. Figure 1, below,
displays the actions the Postal Service could take at each of the implementation steps.

          Figure 1: Opportunities for the Postal Service at Each Step of Implementation




Source: OIG Analysis.

Step 1: Commit to Social Media
As the OIG detailed in its previous report, the Postal Service has already established a
presence on a variety of social media. The Postal Service started to use social media in
2009 and has different pages on some of the major social media sites such as
Facebook, Twitter, and YouTube. 11 The Postal Service’s goals in using these platforms
are to enhance communication, solicit feedback from customers, and recruit prospective
employees. 12 In addition, the Postal Service has dedicated some resources to social

11
     OIG The Postal Service’s Use of Social Media, p. 1.
12
     Ibid.


U.S. Postal Service Office of Inspector General                                                         April 21, 2014
                                                           5
RARC-WP-14-010                                                          Like, Share, Tweet: Social Media and the Postal Service



media, including some analytics tools and a handful of dedicated staff managing the
social media presence and working on developing new strategies. Employees working
on social media at the Postal Service recognize that it is an important tool for
communicating with customers and stakeholders. 13 There are, however, actions the
Postal Service could take to strengthen its performance in this first step.

Continually Evaluate New Platforms

As discussed above, the social media landscape is continually changing. New sites and
tools are constantly being developed, and their capabilities expanding. This requires
regular reevaluation of strategy and tactics. For example, Pinterest is quickly becoming
a widely-used platform and is demonstrating itself to be the most successful social
media site for driving sales. 14 The Postal Service does have a stamp-specific Pinterest
page, where pictures direct customers to blog posts about stamps, as well as to
USPS.com to purchase Click-N-Ship products or to schedule a pick up. The Postal
Service could implement these and other ideas on a business-wide page as opposed to
only a stamp-specific page. Other ideas could include offering ideas for “crafty” ways to
pack and wrap gifts or useful information for small businesses, as United Parcel Service
(UPS) offers on its “The UPS Store” Pinterest page.

Allocate Necessary Resources

A successful social media campaign requires buy-in at every level, including leadership,
along with substantive allocation of resources in the form of technology as well as
personnel who are knowledgeable and passionate about social media. 15 UPS, as
shown in the Snapshot below, has a senior manager with a small, but growing, staff
who primarily work on social media. These personnel resources allow UPS both to
manage customer interactions and launch new social marketing campaigns. In addition,
a successful social media strategy requires cross-functional management, not only to
ensure that each department (marketing, communications, customer service, etc.) can
take advantage of the variety of opportunities social media offers, but also to ensure
that information is consistent across departments and social media platforms.

Currently, the Postal Service has a small team of dedicated social media staff: one full-
time employee in the Corporate Communications department, and two other
employees, one each in Human Resources and Stamp Services, that each work part-
time on social media for their respective departments. 16 These resources do not seem


13
   U.S. Postal Service, in discussion with the author, September 27, 2013.
14
   Pinterest accounts for more social network driven sales than other social networks, likely due to its highly visual
browsing-friendly nature and direct links to the product on the seller’s website. Zak Stambor, “How Pinterest Leads to
Sales,” Internet retailer, February 4, 2014, http://www.internetretailer.com/2014/02/04/how-pinterest-leads-
sales?cid=IRN2014&bro_mid=45871590&bro_rid=0bc103e8000000000000000000000562458a.
15
   McKinsey & Company, McKinsey Global Survey Results: Organizing for Change through Social Technologies,
November 2013, http://www.mckinsey.com/insights/high_tech_telecoms_internet/organizing_for_change_through_so
cial_technologies_mckinsey_global_survey_results, p. 3.
16
   Staff work in Stamp Services is supplemented by a contractor. U.S. Postal Service, in discussion with the author,
April 1, 2014.


U.S. Postal Service Office of Inspector General                                                                  April 21, 2014
                                                          6
RARC-WP-14-010                                                               Like, Share, Tweet: Social Media and the Postal Service



to be sufficient to meet demand. 17 Given the size of the Postal Service, its audience,
and the number of departments that could benefit from communicating with customers
through social media, it would be advisable to dedicate additional resources to social
media. 18 This would help ensure the Postal Service successfully integrates social media
within its overall marketing and corporate communication strategies. 19

                Snapshot 1: UPS — Building a Dedicated Core Social Media Staff
 For UPS, incorporating social media into business practices developed slowly as executives
 watched how others were using it. About 5 years ago, UPS began a gradual roll-out of a
 strategy that is very customer-oriented, allowing UPS to respond to complaints and resolve
 issues quickly. UPS also uses social media as a marketing tool, informing people about specific
 products or services and showing where to get them. The company now has a senior manager
 with a staff of five to 10 employees whose primary responsibilities involve social media activity.
 Dedicated resources for the department are growing incrementally. It’s hard to directly attribute
 specific sales figures to social media, but when UPS has posted about particular products,
 sales for those products have increased. Moreover, UPS evaluates everything the company
 does in terms of return-on-investment. Were social media not demonstrating worthwhile return,
 the social media staff and resources would most likely be decreasing.




           Source: UPS in discussion with USPS OIG, picture is a screenshot from UPS Twitter page available at
           https://twitter.com/UPS.


17
   U.S. Postal Service, in discussion with the author, September 27, 2013.
18
   Given the tough financial situation the Postal Service is currently in, it might be difficult to find the capital to allocate
these necessary resources. However, the cost-cutting capabilities of social media could help justify a greater expense
in this area. See Appendix B for more information on how social media can help cut costs.
19
   It is important for businesses to ensure that a strategy is as successful as possible. A poorly executed strategy is
highly visible and might be more damaging to the brand than not having a social media presence at all. For one
example, see the media backlash to the discovery that the U.S. State Department wasted taxpayer dollars buying
Facebook likes. Moran Zhang, “US State Department Facebook ‘Likes’: DOS Spent $630,000 on Buying Fans,”
International Business Times, July 4, 2013, http://www.ibtimes.com/us-state-department-facebook-likes-dos-spent-
630000-buying-fans-1334457.


U.S. Postal Service Office of Inspector General                                                                       April 21, 2014
                                                               7
RARC-WP-14-010                                                           Like, Share, Tweet: Social Media and the Postal Service



Step 2: Build a Broad User Network
Building the network involves three main actions: promoting the business’ social media
presence, utilizing the platform to communicate and engage with customers according
to their interests and needs, and fostering the creation of tighter, more localized
communities of users. The Postal Service has had some successes in these areas, but
more can be done to build the Postal Service’s network.

Market the Social Media Presence

Many people are probably unaware that the Postal Service has social media pages. Its
page on Facebook currently has about 130,000 “likes,” and the Postal Service’s Twitter
account has about 26,000 followers — not large considering the Postal Service employs
about half a million people and has a customer base equivalent to the entire U.S.
                                     population. Walmart, a company with a similar size
 Many people are probably            and scope, has almost 32 million likes from
 unaware that the Postal Service     Facebook users in the United States and over
 has social media pages.             462,000 total Twitter followers. 20

The OIG’s previous work in the area of social media noted visibility as an issue. 21
Maximizing visibility could include cross-linking between social media sites (linking to
Postal Service Facebook and YouTube sites directly from its Twitter page, for example),
and also making social media site logos more visible on the Postal Service website
(USPS.com), and in TV commercials. 22 Currently, links to Postal Service social media
pages are at the bottom of the homepage and are in gray, which makes them hard to
see. The Postal Service also does not put social media logos or remind viewers to “like
us on Facebook” in their TV ads, as many businesses now do.

Maximizing visibility could also extend to other Postal Service points of access. It has
highly visible trucks and packaging that traverse the country daily, and post offices and
mailboxes in almost every corner of the country. Logos for social media sites could be
placed on all these items, acting as a subtle reminder that the Postal Service uses these
outlets. The Postal Service has already tried to appeal to its youngest customers by
turning some of its blue mailboxes into SpongeBob Squarepants. 23 It could also try
appealing to other young customers (in this case, Millennials) by informing them of its
presence and activity on the platforms on which they prefer.




20
   Out of 34 million total Facebook likes, 32 million of Walmart’s likes are from Facebook users in the United States.
See Socialbakers, United States Facebook Statistics, http://www.socialbakers.com/facebook-statistics/united-states.
This data is not available for Twitter, but if the ratio is similar to the Facebook data the vast majority of Walmart’s
Twitter followers are likely also in the United States.
21
   OIG, The Postal Service’s Use of Social Media, p. 1.
22
   Ibid.
23
   Jenny Xie, “The USPS Tries to Get Kids Writing Letters With a Spongebob SquarePants Mailbox,” The Atlantic
Cities, December 9, 2013, http://www.theatlanticcities.com/arts-and-lifestyle/2013/12/usps-tries-get-kids-writing-
letters-spongebob-squarepants-mailbox/7823/.


U.S. Postal Service Office of Inspector General                                                                   April 21, 2014
                                                           8
RARC-WP-14-010                                                           Like, Share, Tweet: Social Media and the Postal Service



Communicate and Engage with New and Existing Customers

The Postal Service can use social media to cultivate and build long-term relationships
with both new and existing customers to get them excited about postal products and
services. For example, social media could be a great tool for the Postal Service to
engage particularly with Millennials, who rely more on social media and email for
communicating rather than traditional mail. Millennials are quickly becoming a powerful
consumer force, and the Postal Service is going to have to become more relevant to
this population if it wants to be viable in the future. Just establishing a presence on
social media gives the Postal Service the ability to reach these customers on their
preferred channel, but building a relationship requires more effort to create (1) content
relevant to their interests and (2) an informal tone that echoes the communication style
of younger generations.

Develop customer-centric content — Social media users follow companies in order to
stay informed. They want to see information that is pertinent to them. With online
shopping becoming ever more popular, everyone is interested in packages. The more
information the Postal Service can share about package services, the better. Postal
                                             Service postings currently seem to be
   Snapshot 2: Popular Recent Postal         more about stamps than packages (not
        Service Post on Facebook             just on their stamps-specific pages, but
                                             across all pages). Customers also follow
                                             brands in order to find out about contests,
                                             coupons, and other special deals. The
                                             Postal Service could not only ensure that
                                             existing specials or contests are
                                             advertised on social media, but also
                                             create content specifically designed for
                                             the social media audience.

                                             Also, social media is an informal channel
                                             and users enjoy seeing smart,
                                             entertaining, and engaging content. The
                                             Postal Service has experienced some
                                             success with this. For example, a recent
                                             “how many will fit?” picture (left), asking
                                             how many pistachios will fit in a priority
                                             mail shipping box, received more
comments and shares than many other recent postings. 24 This type of content does not
necessarily even have to be related to a product or service at all, but rather something
that resonates with the audience.

Nilla, as discussed in the Snapshot below, pursued an extreme option and invested
their entire advertising budget into this strategy of creating sharable content that
24
  Other popular posts include: a video of a cat in a box, a picture of a mail truck in snow saying “snow won’t stop us,”
and a picture of a postal employee with his son.


U.S. Postal Service Office of Inspector General                                                                   April 21, 2014
                                                           9
RARC-WP-14-010                                                          Like, Share, Tweet: Social Media and the Postal Service



resonates with customers. While the Postal Service would likely be better served by an
omnichannel strategy instead of investing all its advertising capital into social media,
Nilla makes for an interesting case because it allows us to isolate social media as a
variable and see its effects. What we see is that it can pay off. 25

      Snapshot 3: Nilla Wafers — Investing Entire Advertising Budget in Social Media
     The executives for Nilla vanilla wafers decided to do something different: spend every
     single advertising dollar on social media. They did not just put banner ads on
     Facebook, though. Instead, they shared recipe ideas and created a campaign called
     “Momisms” (see below), which are funny quips targeted at their main customer
     audience — Moms. By posting these on the Nilla Facebook page, they were able to
     “share” and “like” their way to success. Sales increased by 9 percent compared with
     the same time last year and costs were a small portion of a conventional advertising
     strategy. This type of advertising is more efficient for them: they can devote a smaller
     sum of money to use social media to cultivate a deeper relationship with a group of
     people who have already demonstrated an interest in the brand.




     Source: Screenshot of Nilla Facebook page, available at https://www.facebook.com/nillawafers.


Respond to customer complaints — Social media has developed as a portal for
customer service. Effectively addressing customer complaints on social media is
important for several reasons. It goes back to the need to be customer-centric. For
example, a customer may contact the Postal Service on Facebook because that is the
25
   See David Segal, “Riding the Hashtag in Social Media Marketing,” New York Times, November 2, 2013,
http://www.nytimes.com/2013/11/03/technology/riding-the-hashtag-in-social-media-marketing.html?_r=0.


U.S. Postal Service Office of Inspector General                                                                  April 21, 2014
                                                          10
RARC-WP-14-010                                                            Like, Share, Tweet: Social Media and the Postal Service



channel the customer prefers; in turn, the customer will expect a prompt response
through that exact channel. Given how competitive the shipping market is, efficient
customer service can be a significant competitive advantage. And it would be more
cost-effective for the Postal Service to resolve customer complaints via social media
than traditional methods, such as telephone. 26 These cost savings could justify a
greater investment of resources in social media. The Postal Service is encouraged to
investigate social media as a customer service channel further.

To date, the Postal Service has put forth some effort into resolving customer complaints
on social media and has had some success as can be seen in the interaction on the left
in the Snapshot below. However, many complaints are either not properly handled, such
as the interaction on the right in the Snapshot below, or do not receive any answer.

                        Snapshot 4: USPS and Customer Service on Social Media
     Below are two examples of customer service interactions between the Postal Service
     and customers on social media. The interaction on the left is an example of an effective
     response to a customer complaint, while the interaction on the right shows a case of
     poor customer service that, if repeated, can be detrimental to the brand.




     Source: Screenshot of USPS Twitter page, available at https://twitter.com/USPS, and screenshot of USPS Facebook
     page, available at https://www.facebook.com/USPS.




26
     For more information on social media’s ability to cut costs, see Appendix B.


U.S. Postal Service Office of Inspector General                                                                    April 21, 2014
                                                            11
RARC-WP-14-010                                                        Like, Share, Tweet: Social Media and the Postal Service



It is also important to have the right people answering customer complaints. The OIG
has previously recommended that the Postal Service “designate a social media liaison
in each of the various product and service groups who could contribute, and help
Corporate Communications respond to postings related to its functional area of
expertise.” 27 Others have even suggested that the Chief Operating Officer be
responsible for managing social media customer service because successfully resolving
complaints is extremely important and operations personnel are often in the best
position to do so. 28

Create Localized and Specialized User Communities

When it comes to communicating with customers, one size does not fit all. This is
particularly true for a business with such a broad and diverse customer base as the
Postal Service.
                                                                              The Postal Service could
Create interest-based user communities — The Postal          use social media to cater to
Service has many specialized interest groups,                different groups and build
including, but not limited to, consolidators, direct         tighter-knit, interest-
mailers, small businesses, stamp collectors, postal          specific communities.
workers, and potential hires. The Postal Service could
use social media to cater to these different groups and build tighter-knit, interest-specific
communities. The Postal Service does this to some extent. For example, it has different
Facebook and LinkedIn pages targeted specifically to stamp collectors and job seekers.
The OIG has suggested that the Postal Service could expand upon this practice by
creating additional stakeholder-specific sites and identifying subject matter experts to
post the most pertinent information to particular groups. 29

Go local — The Postal Service customer base includes every American citizen, but the
United States is a vast geography — citizens in different regions have different needs
and information requirements. When most people think about the Postal Service, they
think about their carrier or their local Post Office. Creating regional or local sites would
help the Postal Service deliver more targeted content — customers could “like” their
local Post Office the way they can “like” their local Walmart store.

Some information might be pertinent only to a specific locality. For example, test runs of
products such as MetroPost or GoPost are first introduced in certain areas. Local social
media pages could announce these products and provide information to affected
customers. In addition, the Postal Service could communicate information regarding
service delays due to bad weather and other emergency notifications to the people
directly affected. As the Snapshot of National Geographic below illustrates, a business
can successfully create active communitites through targeted local content.



27
   OIG, The Postal Service’s Use of Social Media, p. 3.
28
   McKinsey, Why the COO should lead social-media customer service.
29
   OIG, The Postal Service’s Use of Social Media, p. 1.


U.S. Postal Service Office of Inspector General                                                                April 21, 2014
                                                     12
RARC-WP-14-010                                                     Like, Share, Tweet: Social Media and the Postal Service



      Snapshot 5: National Geographic — Creating Local Networks through Local
                                      Content
  The National Geographic Society is a heavy user of social media and engages in
  crowdsourcing and localization to cultivate a distinct community. For example, the
  #yourshot project collects photography from users, such as the picture below, and
  posts it online for ratings and comments. People who post can also get advice from
  experienced photographers and the community at large. The top-rated pictures are
  posted on the website or even in the magazine. A typical photo from this project can
  receive over 56,000 Facebook “likes.” This project is low-cost and allows National
  Geographic to promote an active community. National Geographic further enhances
  this community by localizing content. It has unique social media sites for every country
  in which it is located and posts information pertinent to that locality. Social media
  helps National Geographic promote its brand while constructing a vibrant, engaged
  community.




  Source: Screenshot of National Geographic Facebook page, available at https://www.facebook.com/natgeo.


Utilize carriers — The Postal Service also has a strong local asset in its carriers, who
are generally very well-liked and could be a great benefit in expanding the Postal
Service’s social media activity. For example, the Postal Service could feature interviews
with carriers or “a day in the life of a carrier” videos. Carriers could perhaps even have
their own social media presences and use them to post information of local interest,




U.S. Postal Service Office of Inspector General                                                             April 21, 2014
                                                      13
RARC-WP-14-010                                                            Like, Share, Tweet: Social Media and the Postal Service



connect with customers who live along their route, and even address complaints. 30
Carriers could answer a complaint directly, or loop in someone who might know the
answer. A simple disclaimer on a carrier’s account might make clear the carrier does
not speak for the Postal Service, but the information provided about the Postal Service
could still be very helpful to customers. 31 The Snapshot below shows how a local carrier
Twitter page might look.

                       Snapshot 6: Mock-Up of a Possible Carrier Twitter Page




30
   Having a direct line of contact to carriers through social media is not dissimilar from recent Postal Service plans to
provide carriers with new mobile devices that, in addition to allowing for better real-time scanning, will have the ability
to text. Carriers could text customers when they are on their way to make a delivery, and communicate with
customers about delivery options. While there is not a specific plan in place yet, the Postal Service appears to be
open to opportunities for greater contact between customers and carriers through mobile communication channels.
Megan Brennan, “USPS Evolving Infrastructure to Meet Future Marketplace Demands,” (presentation at Advanced
Workshop in Regulation and Competition, Center for Research in Regulated Industries, Washington, DC, April 4,
2014).
31
   The legal specifics of having a carrier write about the Postal Service on social media are beyond the scope of this
paper. However, many USPS employees are already actively engaging with customers on social media and
attempting to resolve complaints. The Postal Service could examine tapping into their employees’ natural inclination
to help and determine whether encouraging such behavior would be beneficial, or whether it would be too distracting
and time-consuming for employees. The Postal Service would also need to determine liability issues regarding safety.
Of course a carrier should never “tweet” while driving, there should be policies in place to discourage behavior and
mechanisms in place to handle such a situation.


U.S. Postal Service Office of Inspector General                                                                    April 21, 2014
                                                           14
RARC-WP-14-010                                                      Like, Share, Tweet: Social Media and the Postal Service



Step 3: Leverage the Network
This means using social media channels to promote a positive brand image, market
current products and services, and create new products and services. The value and
benefits that social media can bring to a business increase as the size of the network
increases. The Postal Service has launched several network-leveraging initiatives, but
the return is limited because of the relatively small size of the agency’s social media
audience. Only when the Postal Service develops a
strong and wide network of followers will it be better      The Postal Service will only
able to fully harness the power of social media. Here       be able to effectively
are some ideas for leveraging its network that the          harness the power of social
Postal Service could consider when the time                 media once it has built a
becomes appropriate.                                        strong network of followers.

Promote Positive Brand Image

Providing customers with relevant content and addressing their complaints already goes
a long way to promoting a positive brand image. In addition, the Postal Service can
create positive messaging that reflects a constructive image of the postal brand, and
relies on the natural inclination of social media users to share information that they think
is useful or funny, to spread that message across the network.

Create positive messaging — The Postal Service could promote its service projects,
such as its Dog Bite Awareness campaign and its national food drive. It could share
stories of carrier heroics and highlight interesting information such as fun postal trivia, or
the journey a letter makes traveling across the country.

Social media could also be used to address common misconceptions about the Postal
Service. Many people think it is a dinosaur — obsolete in the digital age. Positive
messaging could focus on how important the Postal Service is as a package service
provider and highlight some of the high-tech equipment it has pioneered and is using
(such as the optical character reader).

In addition, a recent OIG survey found that most Americans incorrectly believe the
Postal Service is taxpayer funded. 32 People also probably do not realize how many
packages the Postal Service delivers for FedEx and UPS. It could use social media to
better inform the public. The Postal Service already produces some of this content, but
these positive stories are frequently overshadowed by negative news stories and
unaddressed customer complaints.




32
  Knowing about how the Postal Service is funded also impacted how customers viewed the Postal Service in
general, and changed their expectations of the level of service the Postal Service should provide. See OIG, What
America Wants and Needs from the Postal Service: Summary of Focus Group Research, Report No. RARC-WP-14-
009, February 18, 2014, http://uspsoig.gov/sites/default/files/document-library-files/2014/rarc-wp-14-009_1.pdf.


U.S. Postal Service Office of Inspector General                                                              April 21, 2014
                                                       15
RARC-WP-14-010                                                       Like, Share, Tweet: Social Media and the Postal Service



Promote sharing — The Postal Service could          Video 1: Blippar Product for the U.S.
encourage users to share their “mail moment,”                  Postal Service
making it possible for people to scan their mail
and post about what products, coupons, or
packages they received in the mail that day. A
recently released OIG report shows that people
enjoy sharing this experience, especially when
they receive special mail pieces. 33 Businesses
that send “surprises” and samples by mail, and
mail pieces of unusual shapes or with augmented
reality features, already encourage sharing, and
this is becoming quite popular. 34 One start-up,
Blippar, that works to make printed media more
sharable, has already worked on a campaign for
the Postal Service. 35 More of this type of content
would be well-suited for a social media
campaign.                                           http://www.youtube.com/watch?v=5U
                                                                                     ov3wSJfbM
Conduct Crowdsourced Market Research

The Postal Service could use social media channels to determine customers’ needs and
collect their ideas to improve its current offerings, or even to develop new products and
services. Like many businesses, the Postal Service could crowdsource innovative ideas
through contests, voting, or other interactive methods directly on social media
platforms. 36 Many government organizations have also used crowdsourcing to come up
with ideas on how to better serve citizens. 37 There are already many software
programs, methodologies, and analytics tools available to help businesses and
organizations do this. 38 Crowdsourced market research could be a good complement to
conventional market research tools that would help the Postal Service gain meaningful
insight at a much quicker pace and a much cheaper price. 39 Crowdsourced market

33
   A recent OIG report found that digital natives enjoy samples in the mail. Samples encourage sharing and increase
word of mouth advertising. Digital natives also enjoy augmented reality features. OIG, Enhancing Mail for Digital
Natives, Report No. RARC-WP-14-001, November 18, 2013, http://uspsoig.gov/sites/default/files/document-library-file
s/2013/rarc-wp-14-001_enhancing_mail_for_digital_natives.pdf, pp. 8-10.
34
   One popular business that sends samples through the mail is Birchbox, and many people are socially sharing what
they get. See, Pammy, “I Just Got My Very First Birchbox (January 2011 Birchbox Preview/’Haul),” Pammy Blogs
Beauty, January 19, 2011, http://www.pammyblogsbeauty.com/2011/01/i-just-got-my-very-first-birchbox.html.
Augmented reality is a digital version, with enhanced computer-generated features, of a physical item. Enhanced
features often include video, sound, graphics, or GPS data. See “Augmented Reality,” Mashable,
http://mashable.com/category/augmented-reality/.
35
   Blippar is a company that specializes in advertising with augmented reality. Downloading the Blippar app allows
users to scan a piece of printed advertising and see enhanced features, such as videos, recipes, etc. For more
information, see their website at https://blippar.com/en/.
36
   Nicole Fallon, “Crowdsourcing Business Ideas: How to Do It,” Business News Daily, November 20, 2013,
http://www.businessnewsdaily.com/5483-crowdsourcing-innovation-tips.html.
37
   For example, the White House created the SAVE award, a program allowing federal employees to contribute ideas
for how to make the government more effective and efficient http://www.whitehouse.gov/save-award.
38
   Christopher Pitre, “Why Marketers Should Invest in Crowdsourced Research,” Mashable, January 18. 2011,
http://mashable.com/2011/01/18/marketers-crowdsourced-research/.
39
   Ibid.


U.S. Postal Service Office of Inspector General                                                               April 21, 2014
                                                        16
RARC-WP-14-010                                                         Like, Share, Tweet: Social Media and the Postal Service



research also helps create a more engaged community of loyal brand followers — a
huge asset. 40

Market and Sell Current Products and Services

Social media can be an effective channel to promote and sell products and services.
Posting information on its social media pages, creating easily sharable and targeted
content to stimulate social word-of-mouth, and purchasing advertising space on social
media sites are only some of the actions that the Postal Service could undertake to
                                           market its brand and specific offerings.
     Video 2: U.S. Postal Service Virtual Box
                    Simulator                 Social media sites can also be turned into
                                              online shops, where customers can purchase
                                              certain products and services directly and
                                              conveniently. Some postal operators already
                                              allow customers to purchase stamps and
                                              other items this way, such as Canada Post
                                              as described in the Snapshot below. Canada
                                              Post also offers a variety of tools ranging
                                              from price calculators to tracking services
                                              and customer service on social media sites.
                                              These tools make using its products easier
                                              and improve the overall customer
    http://www.youtube.com/watch?v=-          experience. In the past, the Postal Service
               P__99rKj4U                     launched a similar tool on its website, to
                                              promote and facilitate the use of its Priority
Mail Flat Rate Boxes. The innovative tool was the “Virtual Box Simulator” that allowed
users to project a virtual image of a priority mail box on their desk through a webcam
and compare the size of the box with the item to be shipped. This is a perfect example
of relevant and engaging content that the Postal Service could have on its social media
sites. 41




40
   Priti Ambani, “KPMG:Businesses are Turning Crowdsourcing Communities Into “Assets” to Build Value,”
Crowdsourcing Week, October 1, 2013, http://crowdsourcingweek.com/businesses-are-turning-crowdsourcing-
communities-into-assets/?utm_content=buffer67b7a&utm_source=buffer&utm_medium=twitter&utm_campaign=Buffe
r.
41
   The Postal Service created a video about the simulator, and it received a lot of interest in the news, but it is no
longer available on the Postal Service’s YouTube Page or on their website. The video is still accessible on a third-
party YouTube page at http://www.youtube.com/watch?v=-P__99rKj4U.


U.S. Postal Service Office of Inspector General                                                                 April 21, 2014
                                                         17
RARC-WP-14-010                                                       Like, Share, Tweet: Social Media and the Postal Service

              Snapshot 7: Canada Post — Market and Sell through Social Media
     Canada Post uses its Facebook page primarily for disseminating information rather than
     engaging in two-way conversations with customers. It posts about mail-holding services,
     stamp releases, and other important or seasonal information. However, Canada Post is
     notable because its page offers enhanced functionality. This functionality includes support
     pages where users can see frequently asked questions and be directed to other important
     pages, including Canada Post’s package tracking service or the customer service Twitter
     page where they directly respond to customer complaints via social media
     (@canadapostcares). There is also a Canada Post Shop, as seen below, where users can
     purchase stamps, artwork, and other items sold by Canada Post.




     Source: Screenshot of Canada Post Facebook page, available at https://www.facebook.com/canadapost.


Create New Products and Services that Link the Physical and Digital Worlds

The Postal Service could also use social media to create entirely new product lines.
Some of the ideas presented below are more immediate, but others are more
speculative or might require legislative action. 42 As mentioned previously, social media
changes rapidly and no one knows what the future will hold. It is important for the Postal
Service to keep an open mind and constantly look for new opportunities, as presented
in Figure 2 below: services to provide, gaps to fill, and new revenue possibilities.



42
  A full legal analysis of these ideas is beyond the scope of this paper. Before launching these products and
services, the Postal Service would need to determine whether these ideas comply with current law and collective
bargaining agreements, and submit proposed products and services before the Postal Regulatory Commission as
appropriate.


U.S. Postal Service Office of Inspector General                                                               April 21, 2014
                                                        18
RARC-WP-14-010                                                           Like, Share, Tweet: Social Media and the Postal Service



                           Figure 2: Potential Social Postal Products and Services




Source: OIG Analysis.

Hybrid digital-to-physical communication services: “Mail It!” — The Postal Service could
use social media as a platform to bridge the gap between the digital and the physical
communication worlds. A common use of social media is to share photos, messages,
invites, and important updates with friends and family — but not everyone is on social
media. People also often send birthday greetings
or event invitations via social media. The Postal          The Postal Service could use
Service could provide an option for users to send          social media as a platform to
these pictures and messages through the mail. For          bridge the gap between the
example, what if it were possible to post your             digital and physical
pictures to Facebook and then with one easy click          communication worlds.
“Mail It!” (via the Postal Service) to your
grandmother, who does not have Facebook? This type of service would provide an
opportunity for the Postal Service to partner directly with social media platform providers
to leverage the growing market for digital to physical services, making the use of hybrid
products easier for the customer and combining the immediacy of electronic
communications with the effectiveness of traditional mail. 43




43
  The increased interest in digital to physical services can be seen in the popularity of Paperless Post and Evite and
their recent addition of digital to physical products. Customers have expressed interest in these online/offline hybrid
products, and businesses are already responding. See, for example, “Think Inside the Envelope with Evite ® Ink,”
The Wall Street Journal, October 2, 2013, http://online.wsj.com/article/PR-CO-20131002-906069.html.


U.S. Postal Service Office of Inspector General                                                                   April 21, 2014
                                                          19
RARC-WP-14-010                                                        Like, Share, Tweet: Social Media and the Postal Service



Video 3: Friendshippr, a Crowdshipping        Crowdshipping — Crowdshipping is when a
                Startup                       delivery firm uses the general public, instead
                                              of its employees, to deliver packages. It is a
                                              relatively new trend in the shipping industry —
                                              too new, in fact to determine whether it can be
                                              done profitably and at scale. In addition, there
                                              are other significant potential problems. For
                                              example, when non-employees make the
                                              actual delivery, maintaining accountability
                                              becomes a concern. Yet despite such
                                              challenges, some retail, package, and logistics
                                              companies, such as Walmart and DHL, are
                                              currently experimenting with the idea. 44 The
                                              Postal Service could monitor this trend and
                                              determine if it could work for all or some of its
 http://www.youtube.com/watch?v=9Nw package delivery operations. 45 For example,
                E9X5Kv48
                                              crowdshipping might allow the Postal Service
to reduce costs for a same-day delivery service — a market the Postal Service is
already trying to capture. If the Postal Service decides to pursue crowdshipping, social
media could play an important role in its efforts. The Postal Service could leverage its
social followers to help fill gaps in delivery and cut costs. 46 Already some startups, such
as Friendshippr, use social media to find a crowdsourced courier from among a user’s
social network. Using social media and partnering with a firm like Friendshippr might be
the easiest way for the Postal Service to experiment with this emerging service.

Social e-commerce services — Social media may not be a big driver of direct sales at
present, but it may organically develop that capacity in the future. Social sites for image
and picture sharing, such as Instagram and Pinterest, already act as social e-commerce
windows. New sites, such as Keep, are even more highly focused on shopping, allowing
users to immediately see the price of a product and easily click to the website where
they can purchase it. 47 If these trends continue, social media sites may become a force
for e-commerce.

Beyond selling its own products directly on sites such as Facebook or Keep, the Postal
Service could also create an interesting role as the preferred shipper on social e-
commerce sites. It could develop partnerships with social media sites in the way
Canada Post has teamed up with Etsy in order to streamline order fulfillment and
facilitate shipping on the site. 48 The Postal Service could offer microwarehousing, parcel

44
   OIG, Using the ‘Crowd’ to Deliver Packages, February 12, 2014, http://www.uspsoig.gov/sites/default/files/docume
nt-library-files/2014/using_the_crowd_to_deliver_packages.pdf, p. 2.
45
   OIG, Using the ‘Crowd’ to Deliver Packages, p. 3.
46
   John Russell, Friendshippr Helps You ‘Crowdship’ Products and Goods Via Friends on Facebook, December 12,
2013, http://thenextweb.com/apps/2013/12/12/friendshippr-helps-you-crowdship-products-and-goods-via-friends-on-
facebook/#!xxnvM.
47
   Potential users can check out the site at keep.com.
48
   Canada Post, Canada Post and Etsy Team Up to Offer New Online Shipping Solution, February 18, 2014,
http://www.canadapost.ca/cpo/mc/aboutus/news/pr/2014/2014_online_shipping_solution.jsf.


U.S. Postal Service Office of Inspector General                                                                April 21, 2014
                                                        20
RARC-WP-14-010                                                         Like, Share, Tweet: Social Media and the Postal Service



fulfillment services, and other services that facilitate social media users turning their
pages into online stores, creating a new powerful platform for e-commerce. Startups
such as ShopInterest are already working to facilitate this type of activity, and the Postal
Service could get in at the ground floor and be a powerful partner. 49 It could create a
situation similar to small e-tailers selling their products on Amazon, but in this case, the
interface would be completely controlled by the seller while the back end would be
managed by the Postal Service. 50

Identification services — These could take advantage of the Postal Service’s high level
of trust, especially given that social media sites are not known for identity protection and
privacy. Imagine if the Postal Service’s Address
Management System was integrated with social               The Postal Service could link
media sites such as Facebook, meaning that the             users’ physical addresses to
Postal Service (and for privacy reasons, the Postal        their Facebook profiles, to
Service alone) would be able to link users’ physical       allow them to send mail and
addresses to their Facebook profiles. This could           packages from social sites to
provide users the option to send mail and                  friends without knowing their
packages from social sites to friends without              address.
knowing their address.

This could be particularly helpful in a world of social e-commerce. Potential customers
may not want to give their personal information, such as their addresses or credit card
numbers, directly to the seller. The Postal Service could act as a trusted third party,
ensuring that the seller gets paid, the buyer gets the product, and no personal
information is compromised in the process. The OIG has already suggested this role for
the Postal Service in the realm of peer-to-peer commerce, and this role could easily be
extended to peer-to-peer commerce occurring over social media. 51

This type of service could also be extremely helpful in personal communication. For
example, say that you find out via Facebook that an old friend’s grandmother recently
passed away. You want to send a condolence card or flowers through the mail since
that seems more appropriate than posting “sorry” on their page, but you do not have
your friend’s new address. The Postal Service could use its connection between digital
and physical identities to facilitate this communication.

The Postal Service would benefit by incorporating social media elements into its
products and continuously scanning the environment for new opportunities. No business
knows the importance and benefits of using social media to create new products better

49
   Sarah Perez, “ShopInterest, The Startup that Lets You Sell from Your Pinterest Boards Gets 500 Startups
Backing,” TechCrunch, September 25, 2012, http://techcrunch.com/2012/09/25/shopinterest-the-startup-that-lets-you-
sell-from-your-pinterest-boards-gets-500-startups-backing/.
50
   This could take advantage of the decreasing popularity of Amazon among sellers. Sellers cite that the high level of
competition on Amazon makes it difficult to sell, plus the high cost of selling on Amazon makes it difficult to earn a
profit. See Ina and David Steiner, “Sellers Choice 2014 Marketplace Ratings: Amazon,” eCommerce Bytes, February
2, 2014, http://www.ecommercebytes.com/cab/abu/y214/m02/abu0352/s06.
51
   OIG, Peer-to-Peer Commerce and the Role of the Postal Service, Report No. RARC-WP-13-005, January 14,
2013, http://uspsoig.gov/sites/default/files/document-library/2013/rarc-wp-13-005.pdf.


U.S. Postal Service Office of Inspector General                                                                 April 21, 2014
                                                         21
RARC-WP-14-010                                                     Like, Share, Tweet: Social Media and the Postal Service



than Nike. Nike, as described in the Snapshot, has been a pioneer in the realm of
creating new products that utilize social media.

                                 Snapshot 8: Nike — Creating Social Products
  Nike has been highly successful at reaching its target audience through social media. Nike both
  responds directly to complaints and also localizes and specializes content to create smaller,
  more targeted communities. They are perhaps best known for building “social products” —
  products that integrate social media directly with the product. Their popular Nike+ network and
  products, including the Nike Fuel band, not only keep track of users’ progress and personal
  goals, but also allow users to share their successes automatically on social media, keep track
  of their workout history, and compete with friends who also use the Fuel product.




  Source: Screenshot of Nike+ FuelBand app, available at http://www.engadget.com/2013/04/22/nike-fuelband-app-
  for-ios-adds-friends-and-sharing/.


Step 4: Measure the Network’s Success
Social media analytics are the backbone of successful social media strategies. There is
so much information on social media that hearing important messages among the noise
is a daunting task. In order to do this, the Postal Service must have a clear
understanding of what its strategic goals are as well as the variables to be measured.
                                       Once the objectives and performance metrics are
   Social media analytics are the      defined, there are many monitoring and analytics
   backbone behind successful
                                       tools available to help measure the success of a
   social media strategies.
                                       social media strategy and return on investment.

Use Tools to Measure Performance

Analytics tools allow businesses to track a variety of information. At the most basic
level, businesses can keep track of the number of followers the business has and the

U.S. Postal Service Office of Inspector General                                                             April 21, 2014
                                                      22
RARC-WP-14-010                                                           Like, Share, Tweet: Social Media and the Postal Service



                                                  number of “likes,” “shares,” and comments each
       Figure 3: Top Ten Users of                 posting receives. These data help businesses know
       @USPS and #USPS (during                    the size of their networks as well as what postings
       one week in late July 2013).               are most popular. Businesses can then create more
             1. Usps                              of the popular types of posts and fewer of the less
             2. darrellissa                       popular types. Businesses can also keep track of
             3. postofficetruth                   who “clicked through” from the social media page to
             4. nalc_national                     the company website, and how many of those
             5. inequityspeaks                    “clickthroughs” were converted to sales. The
             6. implowshun                        number of clickthroughs is usually used in the
             7. postalnews                        discussion of social media’s return on investment.
             8. occupyoakland
                                                  The percentage of clickthroughs converted to sales
             9. carol85719
             10. ruralinfo                        is relatively low, but still worth measuring —
                                                  especially as businesses can begin to analyze the
     Source: OIG Analysis.                        factors and features that result in a purchase. 52

Another important aspect of analytics is being able to determine who is in a business’s
network. The Postal Service could use this aspect to see who talks about it the most.
For example, the box at left shows who the common users of the hashtag #USPS were
during a set time frame. 53 This kind of exercise might help identify new stakeholders
and spark outreach — since carol85719 apparently talks about the Postal Service a lot,
it might be worthwhile to reach out to her and hear what she has to say.

Analytics tools also allow businesses to create maps of social media relationships to
see who is connected to whom and how. By examining these relationships, the Postal
Service can find out who it is able to reach, and what current connections it can utilize to
build new connections. It can also identify top influencers in the social media network —
the users in the postal network that are able to not only reach but also influence the
greatest number of users. The Postal Service could target content or build specific
relationships with these influencers in order to engage them in building social buzz
about postal products and services. 54



52
   Clickthrough rate on Twitter, for example, is less than 2 percent — and that is just pure clicks, not clicks that
translate to sales. See Richard Darell, Twitter Marketing: What Results to Expect, BitRebels, 2013,
http://www.bitrebels.com/social/twitter-marketing-click-ctr-infographic/.
53
   Using a hashtag with a tweet essentially catalogs that tweet in a file, along with all other tweets that have used the
same hashtag. For example, if someone tweets “Got an exciting package in the mail today! #usps,” other people
could click on “#usps and see what other messages have been “tweeted” using that hashtag. The @usps would
direct the tweet directly to USPS’s twitter account. So if someone tweets “missing package @usps,” USPS will
automatically see that tweet. A simple analytics tool could look through all the tweets with @usps and #usps, see who
wrote the tweet, and determine the top users.
54
   Businesses are quickly realizing the benefits of what is now called “influencer marketing.” Influencers are being
recognized for their ability to mobilize opinions and engage with a wide audience of participants, and like to be
provided with information that allows them to do so. Businesses are taking initiative with influencers, providing them
with information about product launchings, special events, and other information. Businesses are also utilizing these
influencers in crisis management. See eMarketer, Marketers Use Influencer Marketing to Launch Products, Share
Content, March 10, 2014, http://www.emarketer.com/Article/Marketers-Use-Influencer-Marketing-Launch-Products-
Share-Content/1010662/1.


U.S. Postal Service Office of Inspector General                                                                   April 21, 2014
                                                          23
RARC-WP-14-010                                                     Like, Share, Tweet: Social Media and the Postal Service



Analytics also allow businesses to find out not only who is talking about them but also
what they are saying — in detail. A branch of analytics called customer sentiment
analysis allows users to analyze whether the discussion of their brands is positive,
neutral, or negative. 55 For example, the Postal Service could analyze tweets to
determine public sentiment toward an announced service change, such as moving from
6-day delivery to 5-day delivery. The Postal Service can also track questions,
comments, and problems. If the same
issue frequently recurs, it can engage in       Snapshot 9: Customer Sentiment
further conversation about it, or                            Analysis
immediately address the issue.
                                                       The chart below is an example of a basic
Businesses can also use tools to                       analytic activity: examining the sentiment
examine patterns in behavior and begin                 (positive, negative, or neutral) of tweets that
                                                       mentioned “usps” during a defined time
to ask questions. For example, “Do
                                                       frame.
people who like X also like Y?” The
Postal Service can attempt to find
correlations between customers’ social
media activity and their buying behavior,
thus gaining better understanding of
what types of messaging resonate with
users and what factors are more likely
to produce a more positive view of the
brand or even a purchase. These types
of tools can go a long way to helping the
Postal Service manage customer                         Source: Peoplebrowsr.
complaints on social media platforms.

Conclusion
Social media is an important business tool that should be used to its fullest potential, in
conjunction with other communication channels. It can allow businesses to extend their
reach, cut costs, create value, and remain current as society changes. Social media
could be an important force for the Postal Service, and there are many actions it can
take to advance its social media use. The Postal Service needs to identify and analyze
new opportunities. It will also be important, before implementing any part of a social
media strategy, that key personnel across the Postal Service, including those at senior
levels, are committed to social media and aware of the agency’s goals in using social
media. This commitment is necessary to ensure dedication of the resources required to
make the strategy successful. If the Postal Service keeps an open mind and is
deliberate and dedicated in its implementation process, the possibilities social media
offers are quite significant.


55
  For more on sentiment analysis, see Rachael King, “Sentiment Analysis Gives Companies Insight Into Consumer
Opinion,” Bloomberg Businessweek, March 1, 2011, http://www.businessweek.com/stories/2011-03-01/sentiment-
analysis-gives-companies-insight-into-consumer-opinionbusinessweek-business-news-stock-market-and-financial-
advice.


U.S. Postal Service Office of Inspector General                                                             April 21, 2014
                                                      24
RARC-WP-14-010                                                                 Like, Share, Tweet: Social Media and the Postal Service



Appendix A Common Social Media Platforms
There are many different social media platforms through which users can share and
generate information. These range from bookmarking sites, to media sharing sites, to
social review and rating sites. The table below outlines the variety of social sites
available to users. 56

                                              Table 1: Social Media Platforms

                      Type                                  Description                              Example
                                                  Journal-like sites that allow for
                                                  the creating of content that
     Blogs                                        can be seen chronologically          WordPress, Movable Type
                                                  and can be a forum for user
                                                  communication through posts
                                                  Sites that allow for the
     Microblogs                                   exchange of limited length of        Twitter
                                                  text, links, or images
                                                  An online service, platform, or
                                                  site that focuses on facilitating
                                                  the building of social networks
                                                  or social relations among            Facebook, Myspace, LinkedIn,
     Social Networks
                                                  people who, for example,             Yammer
                                                  share interests, activities,
                                                  backgrounds, or real-life
                                                  connections
                                                  Discussion sites that allow
     Forums and Discussion
                                                  people to communicate by             Google Groups, What’s App
     Groups
                                                  posting messages
                                                  Sites that allow users to post
                                                  reviews and ratings about
     Social Review and Rating                                                          Yelp, Angie’s List, TripAdvisor
                                                  businesses, products, and
                                                  services
                                                  Sites that allow users to post
                                                  links relating to various news
     Social News                                  topics and then allow users to       Digg, Reddit
                                                  vote on the most interesting,
                                                  useful, or helpful link
                                                  Online platform that allows
                                                                                       YouTube, Flickr, Instagram,
     Media Sharing                                users to share pictures,
                                                                                       Vine
                                                  videos, documents, etc.
                                                  Sites that allow users to store,
                                                                                       Stumble Upon, Pinterest,
     Bookmarking Sites                            organize, use, and share
                                                                                       Flipboard
                                                  website links




56
  Marc Strohlein, “Demystifying Social Media. Report,” 2011, http://www.agilebusinesslogic.com/blog/wp-
content/uploads/downloads/2011/05/DemystifyingsocialABL552011.pdf, "The 6 Types of Social Media," Outthink Aut
hor Marketing, http://outthinkgroup.com/tips/the-6-types-of-social-media, and “Social Networking," Mashable, http://m
ashable.com/category/social-networking/.


U.S. Postal Service Office of Inspector General                                                                         April 21, 2014
                                                                 25
RARC-WP-14-010                                                      Like, Share, Tweet: Social Media and the Postal Service



Appendix B Detailed Explanation of the Benefits of
           Social Media
As mentioned in the body of the paper, the majority of businesses now use social
media. There are four main reasons that we identify for why business use social media,
and each of these reasons are discussed in turn below. Social media helps businesses

          Respond to changing customer communication needs,

          Leverage the “network effect,”

          Create value through social commerce, and

          Cut costs and increase efficiency.

Respond to Changing Customer Communication Needs
The communication norms, shopping habits, and leisure activities of society have
changed over the past few decades. Many of these changes are due to the increased
importance of the Internet to daily life. People send emails and contact each other
through social media instead of sending a letter or calling. Rather than running to the
store, many individuals choose to buy their groceries, music, and everything else online.
Leisure activities, such as viewing TV, have also changed drastically. The availability of
digital video recorders and streaming TV online means people are viewing fewer
commercials, which has clear impacts on traditional advertising. These activities
become more common as more people use the Internet regularly, and currently about
85 percent of the U.S. population now uses the Internet. 58

Heavy use of the Internet means that new ways of marketing to and communicating with
customers are not just possible but necessary. Since people are spending greater
amounts of time online, businesses must focus their effort on reaching customers on the
channel they prefer. Social media is one important avenue for online marketing, but not
necessarily in the traditional sense of purchasing ads. The traditional purchased
advertising, including banner ads on websites, is increasingly less well received by
                                      audiences, but social media can be seen as a
 Thirty years ago, a customer’s       platform to facilitate a different kind of one-to-one
 word-of-mouth had the power          marketing. 59
     to influence only about ten
     people. Now a vocal customer                 The Internet and social media also mean the
     can instantly reach over one                 consumer is more powerful and a more important
     thousand people.                             resource for businesses. Consumers now have the
                                                  ability to (publicly) provide feedback about products

58
   Pew Research Center, Who’s Not Online and Why, September 25, 2013, http://www.pewinternet.org/files/old-
media//Files/Reports/2013/PIP_Offline%20adults_092513_PDF.pdf.
59
   Angela Hausman, “16 Differences Between Social Media and Traditional Media.”


U.S. Postal Service Office of Inspector General                                                              April 21, 2014
                                                         26
RARC-WP-14-010                                                          Like, Share, Tweet: Social Media and the Postal Service



and services, and often expect a response. In addition, social networking allows an
individual to reach and influence more people. Thirty years ago, a customer’s word-of-
mouth had the power to influence only about 10 people. Now a vocal customer can
reach over 1,000 people. 60 One person spreading a negative message about a
business is more harmful now due to the number of people that message can reach.

Many of these traits and trends are particularly evident with Millenials, the group of
people born roughly between the late 1980s and early 2000s who grew up with the
Internet. Millennials are now the largest generational group, outnumbering the Baby
Boomers, and they are poised to drive most of the world’s economic activity in the near
future. 61 It is therefore important to understand and cater to their preferences. They are
heavy users of social media, and often prefer to communicate through that channel. 62
Ignoring these preferences could drive this customer segment away.

These societal shifts have provided many new business opportunities, but have also
necessitated significant changes in business models if companies want to remain
current and relevant. The Postal Service is not immune from the effects of these
changes. The serious decline in First-Class Mail is largely a result of the change in
communication habits brought about by the Internet; although the rising trend in e-
commerce means a potential expansion in the Postal Service’s package business. The
Postal Service has also previously had success with TV commercials, but as fewer
people view commercials, the Postal Service will need to update its marketing strategy.
Now is the time for the Postal Service to respond to these cultural shifts before it is too
late.

Leverage the “Network Effect”
In addition to being able to “keep up with the times,” businesses find that, since so many
people use social media, it allows them to significantly extend their reach. 63 Facebook
and YouTube each have more than 1 billion unique users and other popular sites are
not far behind. 64 According to one recent study, more than 90 percent of online adults
use social media regularly, making it one of the top activities on the Internet. 65 Although
still most popular with Millennials, social media is now a communication tool for all age




60
   Alex Bard, “Here’s Why the Future of Customer Service is Social,” Business Insider, December 10, 2010,
http://www.businessinsider.com/the-future-of-customer-service-is-social-2010-12.
61
   OIG, Enhancing Mail for Digital Natives, p. 1.
62
   The Boston Consulting Group. The Millennial Consumer: Debunking Stereotypes, April 2012,
http://www.brandchannel.com/images/papers/536_BCG_The_Millennial_Consumer_Apr_2012%20(3)_tcm80-
103894.pdf, p. 6.
63
   A business’s “reach” refers to their ability to get their message seen by a greater audience of people by building a
fan base and using current connections to reach new connections (for example, through likes, shares, reviews, and
recommendations).
64
   Craig Smith, “How Many People Use 415 of the Top Social Media, Apps, & Tools,” Digital Marketing Ramblings,
http://expandedramblings.com/index.php/resource-how-many-people-use-the-top-social-media/#.UwuVHRyG2So.
65
   Experian, The 2012 Digital Marketer: Benchmark and Trend Report, 2012, http://www.experian.com/assets/marketi
ng-services/reports/2012-digital-marketer-download.pdf?SP_MID=344&SP_RID=670918&expid=0000, p. 79.


U.S. Postal Service Office of Inspector General                                                                  April 21, 2014
                                                          27
RARC-WP-14-010                                                        Like, Share, Tweet: Social Media and the Postal Service



groups — the largest recent growth across social media sites has been among older
populations, particularly those 55 and older. 66

The power of social media lies partly in the fact that it is able to reach so many
people — a phenomenon called the “network effect.” This is the concept that a
network’s value increases as it is able to reach more and more people. A business
posting a message online derives greater value from the fact that 1 billion people can
see that message as opposed to 1 million. And social media uses an active audience,
which amplifies the network effect even more — over three-quarters of adults on social
networking sites have shown support for a product, service, or company by liking,
following, or sharing. 67

The growing amount of time spent on social
media sites and the abundance of valuable                People are sharing so much
information people are sharing also increase the         information that social media
                                                         is now one of the top five
value of the network. These features are what
                                                         sources of big data —
make social media different and potentially more         “unstructured” information
useful for businesses than other forms of mass           about what people, say, do,
communication, such as TV. Most users already            and like.
spend over 20 percent of their time online sharing
and engaging on social media, and this is likely to increase as levels of engagement
continue to increase. 68 Also, people are sharing so much information that IBM has
determined that social media is now one of the top five sources of big data —
“unstructured” information that flows from social sites about what people, say, do, and
like. 69 The ability to manage, analyze, and use this data can provide excellent returns to
the business.

With a customer base the size of the U.S. population, the Postal Service needs to be
able to have a wide reach in order to communicate with customers and promote the
business. The importance of analytics cannot be ignored either. The Postal Service is in
possession of a business model that many say is outdated, and a core product that
people are using less and less. Having such a source of valuable information could help
the Postal Service learn more about Americans’ communication needs and how it can
continue to fulfill its mission of binding the nation together.




66
   Ofcom, Adults’ media use and attitudes report, April 2013, http://stakeholders.ofcom.org.uk/market-data-
research/media-literacy/archive/medlitpub/medlitpubrss/adults-media-use-attitudes/, p. 4-5.
67
   Experian, The 2013 Digital Marketer, p. 116.
68
   eMarketer, Frequency with which UK social network users visit social networks, by demographic, Nov 2012, and
Nielsen, State of the Media: The Social Media Report, 2012,
http://www.nielsen.com/content/dam/corporate/us/en/reports-downloads/2012-Reports/The-Social-Media-Report-
2012.pdf. eMarketer is also the source for “engagement increases.”
69
   IBM Institute for Business Value, Analytics: The Real-world Use of Big Data in Retail – How Innovative Retailers
Extract Value from Uncertain Data, 2013, http://www-935.ibm.com/services/us/gbs/thoughtleadership/big-data-retail/,
p. 5.


U.S. Postal Service Office of Inspector General                                                                April 21, 2014
                                                        28
RARC-WP-14-010                                                          Like, Share, Tweet: Social Media and the Postal Service



Create Value through Social Commerce
Businesses naturally want to use the reach that social media offers to generate revenue
through social commerce. Businesses have established shops to sell directly on social
media and developed campaigns to drive traffic back to their websites in the hopes of
converting the visit into a sale. 70 Some businesses have seen success, but most social
storefronts have closed down due to few sales, and many businesses report little
revenue per visitor and few clickthroughs to the website from social media. 71 For most,
“the ability of the social network to drive revenue for e-commerce businesses continues
to remain elusive.” 72

The reason sales revenue is elusive goes back to the purpose of social media — at its
core, social media is not about buying things. It is about sharing information, creating
                                     new relationships, and engaging with other users.
   According to one researcher,      As one researcher describes, selling on social
   selling on social media is like   media is like “trying to sell stuff to people while
   “trying to sell stuff to people   they’re hanging out with their friend at the bar.” 73
   while they’re hanging out with    Direct sales may not work well at present, but
   their friend at the bar.”         businesses can still use social media to their
                                     financial advantage.

Social media may not currently be an important part of the buying phase, but it is an
incredibly important part of the discovery and research phases. More than half of
Millennials have used social media to inform themselves about a product or company
ahead of a purchase. 74 As such, social commerce has come to mean the value of social
media for getting the word out, promoting a positive brand image, and turning reputation


70
   Canada Post, detailed in a case study later in the paper, is one example of a business with a shop feature on its
social media page at https://www.facebook.com/canadapost. KLM airlines is another example of a business using
social media to sell to customers, although in a slightly different way. See Zak Stambor, “An Airline Lets Travelers
Pay for Flights Via Social Media,” Internet Retailer, February 13, 2014, http://www.internetretailer.com/2014/02/13/airl
ine-lets-travelers-pay-flights-social-media?cid=IRN2014.
71
   Many businesses had little to no success with social media shops and closed them down. See Ashley Lutz,
“Gamestop to J.C.Penney Shut Facebook Stores,” Bloomberg News, February 22, 2012, http://www.bloomberg.com/
news/2012-02-17/f-commerce-trips-as-gap-to-penney-shut-facebook-stores-retail.html. Examples of successes
include JackThreads using a new Facebook tool for paid advertising to achieve a 700% return on its advertising
spend, as discussed in Zak Stambor, Facebook Adds a Shop Now Button. The case study of Nilla in the paper is
another example of how a social media presence has translated into sales dollars. See David Segal, “Riding the
Hashtag in Social Media Marketing,” New York Times, November 2, 2013,
http://www.nytimes.com/2013/11/03/technology/riding-the-hashtag-in-social-media-marketing.html?_r=0. Businesses
report that the average revenue per visitor for social media networks is around one dollar. See Adobe Digital Index,
Social Intelligence Report Q4 2013, January 27, 2014, http://www.cmo.com/content/dam/CMO_Other/ADI/ADI_Social
IntelReport_Q413.pdf, p. 8. Overall, few sales can be traced back to social media. For example, in IBM’s series of
reports on black Friday shopping habit, social media consistently generates less than 1 percent of overall sales. See
IBM, Black Friday Report 2012, November 2012, http://www-01.ibm.com/software/marketing-solutions/benchmark-
reports/benchmark-2012-black-friday.pdf.
72
   Suchartia Mulpuru, “Will Facebook Ever Drive eCommerce?,” Forrester Research, April 7, 2011,
http://www.forrester.com/Will+Facebook+Ever+Drive+eCommerce/fulltext/-/E-RES58603.
73
   Sucahrita Mulpuru, quoted in Ashley Lutz, Gamestop to J.C.Penney Shut Facebook Stores.
74
   Shea Bennett, 4 Ways That Brands Can Appeal to Millennials on Social Media, December 28, 2013,
http://www.mediabistro.com/alltwitter/4-social-millennials-tips_b53456.


U.S. Postal Service Office of Inspector General                                                                  April 21, 2014
                                                          29
RARC-WP-14-010                                                          Like, Share, Tweet: Social Media and the Postal Service



into capital. Businesses do this by creating sharable
content, encouraging positive messaging, engaging                          More than half of Millennials
with customers, and building trust.                                        have used social media to
                                                                           inform themselves about a
Businesses now focus on getting customers and                              product or company ahead of
                                                                           a purchase.
fans to share positive messaging. By creating
simple campaigns that give customers useful
information or humorous content, a message can be shared across networks and get
the business’s name out there. When messages are shared, it acts as a form of “social
proof” — the idea that people are heavily influenced by the actions of others. 75 In social
media, if some are following a certain brand and sharing that brand’s messaging, then it
is likely that others will also want to follow the brand.

Another important form of positive messaging is encouraging a customer to write a good
review. Reviews have become the new celebrity endorsement — they are extremely
important to the selection process, particularly if the reviewer is known to the potential
                                     customer. 76 More than 70 percent of Americans say
  Over 70 percent of Americans       they look at product reviews before making a
  say they look at product           purchase. 77 In the near future one-third of
  reviews before making a            consumer spending could be influenced by this kind
  purchase.                          of social shopping. 78

Equally important as positive messaging is engagement. Social media allows
businesses to proactively build stronger, longer-term relationships through generating
original, exclusive, and personalized content that targets specific user communities.
Crowdsourcing material also helps to build an even more active community. 79 These
campaigns provide reasons for customers to follow businesses and new ways for
businesses to engage customers. Another important form of engagement is addressing
customer complaints “socially.” Currently, around 70 percent of businesses use social
media for customer service. 80 This builds goodwill and increases the perception of the
brand. 81


75
   Pamela Vaughan, 10 Ways to Instantly Amplify the Social Proof of Your Marketing, April 17, 2012,
http://blog.hubspot.com/blog/tabid/6307/bid/32418/10-Ways-to-Instantly-Amplify-the-Social-Proof-of-Your-
Marketing.aspx.
76
   The Boston Consulting Group, The Millennial Consumer, p. 6.
77
   Spencer Ante, “Amazon: Turning Consumer Opinions into Gold,” Bloomberg Business Week, October 15, 2009.
http://www.businessweek.com/magazine/content/09_43/b4152047039565.htm.
78
   McKinsey & Company, The Social Economy, p. vii. This would be good for businesses in general, since customers
that read reviews have a higher average order value. See Bazaarvoice, The Conversation Index Vol. 1, September,
2011.
79
   Crowdsourcing refers to using a company’s network to develop user-generated ideas for advertising, products,
brand recognition, and community. Crowdsourcing gets customers involved more directly, and gives them a sense of
ownership and responsibility for a business’s activities. For a famous example, see “5 Finalists in Doritos ‘Crash The
Super Bowl’ Ad Contest – 2013 Announced by Ali Landry,” Superbowl-ads.com, January 4, 2013, http://superbowl-
ads.com/article_archive/5-finalists-in-doritos-crash-the-super-bowl-ad-contest-2013/.
80
   McKinsey Quarterly, Why the COO Should Lead Social-Media Customer Service, p. 1.
81
   The Boston Consulting Group, Marketing Capabilities for the Digital Age, January 2012,
http://www.bcg.com/documents/file96799.pdf, p. 4.


U.S. Postal Service Office of Inspector General                                                                  April 21, 2014
                                                         30
RARC-WP-14-010                                                      Like, Share, Tweet: Social Media and the Postal Service



Another important aspect of social media is that it helps build trust through these
relationships. Simply being present and engaging with users helps reach this end — a
growing number of people are more likely to favor and trust brands that have social
media presences than those without. 82 Social
media is also a more trusted medium of
                                                        There is an estimated
advertising. In fact, more than 90 percent of global    $900 billion to $1.3 trillion in
consumers say they trust earned media, such as          annual value to the economy
direct recommendations or tacit endorsements on         that could be unlocked by
social media (via a “like” or a “share”), above other   social technologies.
forms of advertising. 83

Although the direct return on investment of social media may be difficult to quantify, the
overall value of social commerce, reputation capital, and brand enhancement could be
substantial. Researchers at McKinsey estimate that there is somewhere between
$900 billion and $1.3 trillion in annual value to the economy that could be unlocked by
social technologies. 84 Being able to obtain a small portion of that pie would be beneficial
to the Postal Service.

Cut Costs and Increase Efficiency
Social media also allows businesses to cut costs and increase efficiency within the
company through cheaper, faster, and better communication processes. Even though
strategic use of social media requires investment of resources, it can be a much less
expensive alternative to other marketing and customer relations management tools.

The most relevant areas of cost savings are customer service, advertising, and market
research. Using social media as a customer service channel can generate significant
savings — handling a customer call typically costs more than $6 whereas an interaction
using social media costs less than $1. 85 Social media can also increase the efficiency of
customer service by making it easier to direct customers to helpful websites or videos. 86
By publicly resolving customer complaints, customer service also becomes a form of
advertising — 71 percent of customers who have had a good social media service
experience with a brand are likely to recommend it to others. 87 In addition, instead of
paying for expensive billboards or commercials, companies can increase sales and cut
marketing budgets by developing simple social media campaigns that are able to reach
a wide audience through “likes” and “shares.” Social media can also be used as an
inexpensive tool for product development. Customers already vocalize their thoughts via
social media; businesses can utilize this rich data source instead of independently
collecting customer opinions through expensive surveys.

82
   Mass Relevance, The Social Hunger: Why Your Audience Feasts on Social Integration, 2012,
http://learn.massrelevance.com/, p. 7.
83
   Nielsen: Global Consumers’ Trust in ‘Earned’ Advertising Grows in Importance, April 10, 2012,
http://www.nielsen.com/us/en/press-room/2012/nielsen-global-consumers-trust-in-earned-advertising-grows.html.
84
   McKinsey & Company, The Social Economy, p. 3.
85
   McKinsey, Why the COO Should Lead Social-Media Customer Service, p. 2.
86
   Ibid., p. 1.
87
   Ibid.


U.S. Postal Service Office of Inspector General                                                              April 21, 2014
                                                       31
RARC-WP-14-010                                                          Like, Share, Tweet: Social Media and the Postal Service



Further value can be unlocked by using social media with prospective and current
employees. Human resources departments have used social media, such as the
popular site LinkedIn, not only to reach potential recruits more cheaply but also to better
match skills to needs. 88 Internally, employees can use social media to find important
company information, reducing the time employees spend searching for this information
by as much as 35 percent. 89 Employees can also collaborate on projects and share
relevant resources and information with each other, potentially increasing their
productivity by 20 to 25 percent. 90 In a time when the Postal Service is not on strong
financial footing, any opportunity to cut costs should be taken into consideration.

Social media provides a new channel to reach out to prospective customers and
engage with existing customers in a different way. It reduces costs, helps improve the
brand, and can lead to new sources of revenue — even if in a limited capacity. The
benefits of social media are difficult to measure but potentially substantial. The
possibility of realizing these benefits, as well as a need to remain relevant in a changing
society, should provide incentive for the Postal Service to commit to a successful social
media strategy.




88
   McKinsey & Company, The Social Economy, p. 40.
89
   Ibid., p. 11.
90
   Ibid., p. 3. There are some concerns about low usage rates of intra-office social media. However, given the low
cost of these internal tools, even a low usage rate of 5 percent across the organization will see a return on
investment. Deloitte, Set the Right Expectations for Enterprise Social Networks,
http://deloitte.wsj.com/cio/2013/02/21/enterprise-social-networks-another-tool-not-a-panacea/.


U.S. Postal Service Office of Inspector General                                                                  April 21, 2014
                                                         32
RARC-WP-14-010                                                        Like, Share, Tweet: Social Media and the Postal Service




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                                April 21, 2014
                                                            33
